c/iiJrf- c/f'y
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7706
JAMES W. CAMPBELL,
Petitioner - Appellant,
v.
TAMMY BROWN, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Michael F. Urbanski, Chief District Judge. (7:18-cv-00277-JLK-RSB)
Submitted: July 23, 2020

Decided: July 27, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
James W. Campbell, Appellant Pro Se. Katherine Quinlan Adelfio, OFFICE OF THE
ATTORNEY GENERAL OF VIRGINIA, Richmond, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
James W. Campbell seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2254 (2018) petition. The order is not appealable unless a circuit justice or
judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(A) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the petition states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Campbell has not
made the requisite showing. Accordingly, we deny a certificate of appealability and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

USCA4 Appeal: 19-7706

Doc: 24

Filed: 10/27/2020

Pg:1of1

FILED: October 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7706
(7:18-CV-00277-JLK-RSB)

JAMES W. CAMPBELL
Petitioner - Appellant
v.

TAMMY BROWN, Warden
Respondent - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

£:/£> )

FILED: July 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7706
(7:18-cv-00277-JLK-RSB)

JAMES W. CAMPBELL
Petitioner - Appellant
v.
TAMMY BROWN, Warden
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

FILED: August 18, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7706
(7:18-CV-00277-JLK-RSB)
JAMES W. CAMPBELL
Petitioner - Appellant
v.
TAMMY BROWN, Warden
Respondent - Appellee

MANDATE
The judgment of this court, entered July 27, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

^ S)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
JAMES W. CAMPBELL, SR.,
Petitioner,

CLERK’SOFFICE U.8. DJST. COURT
AT DANVILLE, VA
RT
filed

)
)

)

MAY 2 8 2019
RK
DEPUTY CLERK3

CASE NO. 7:18CV00277

)

v.

)

ORDER

)

TAMMY BROWN,

)
Respondent.

)
)

By: Hon. Jackson L. Kiser
Senior United States District Judge

In accordance with the accompanying memorandum opinion, it is hereby
ADJUDGED AND ORDERED
that Respondent’s motion to dismiss [ECF No. 14] is DENIED, and Respondent is DIRECTED
to respond to Petitioner’s claims within 30 days from the entry of this order.
ENTERED this ofS^day of May, 2019.

CSENIOR UNITED STATES DISTRICT JUDGE

1

‘

kl.

yL "Y-A- • A? ‘ T~ C
Yi'

T~

i FILED
I

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
JAMES W. CAMPBELL, SR.,
Petitioner,
v.
TAMMY BROWN,
Respondent.

)
)
)
)
)
)
)
)
)

c/o

CASE NO. 7:18CV00277
MEMORANDUM OPINION
By: Hon. Jackson L. Kiser
Senior United States District Judge

Petitioner James W. Campbell, Sr. (“Campbell” or “Petitioner”), a Virginia1 inmate
proceeding pro se, filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254,
i

challenging criminal convictions in Amherst County on August 26,2015 (Case No. CR15!015213DO), and on November 9,2015 (Case No. CR15015307-00). The matter is presently befoje
me on
the respondent’s Motion to Dismiss and Campbell’s response thereto. After a full review of the
i

record, for the reasons set forth below, I will grant the Motion and dismiss Campbell’s petition.
j

I.
.1

Both convictions arise from Campbell’s arrest on August 6, 2014, for the manufacture of
methamphetamine in\ violation of Virginia Code § 18.2-248, following execution of a search
warrant for his home and curtilage.1 Campbell waived preliminary hearing on the charge, and on
February 10, 2015, the Grand Jury issued an indictment charging that Campbell “did unlawfully
and feloniously, manufacture, distribute or possess with the intent to sell, give or distribute a
controlled substance . . . methamphet^lmine, in violation of § 18.2-248” on August 6, 2014.
(Appendix in Case No. 15015213-00, hereafter “App. 1”, p. 3.) Campbell filed a motion to
'The factual allegations in this section are drawn from the pleadings and attachments thereto filed
by the parties in this case [ECF Nos. 1 & 14], and from the paper and electronic records from the Virginia
Court of Appeals and from the Virginia Supreme Court in both state cases, on file with the Clerkl

/

suppress the evidence, alleging that the search warrant and supporting affidavit had never been
i

filed in the clerk’s office as required by Virginia Code § 19.2-54, and that the search violated his
rights under the United States Constitution.
i

Less than a week before trial, the Clerk’s office located the misfiled search warrant, but the
«

“

r

second page of the supporting affidavit was not there. On April 2, 2015, Campbell ‘filed an
amended motion to suppress and a motion for relief from waiver (based on late discovery of the
misfiled search warrant), renewing his challenge to the validity of the search warrant under
Virginia Code § 19.2-54 and under the Fourth Amendment to the United States Constitution.
Specifically, he alleged that an essential portion of the affidavit in support of the search warrant
had never been filed in the Clerk’s office. Indeed, the second page of the affidavit, containing all
the information on which probable cause was based, was never found in the clerk’s office or court
files, apparently due to a malfunction of the fax machine. See Commonwealth v, Campbell. 807
. I
J

S.E.2d 735, 737 (Va. 2017), cert, denied, 139 S. Ct. 421 (2018), reh’g denied. 139 S. Ct. 1244
(2019).
On April 3, 2015, the parties appeared for hearings on the motion to suppress andifor trial.
Campbell was arraigned, entered a plea of “not guilty,” and said he was ready to go forw ard with
the trial that day, electing to be tried by the judge without a jury. (App. 1, pp. 20-24.) The court
ruled that a violation of Virginia Code § 19.2-54 was a procedural matter that did nojt require
suppression of the evidence. (Id. at 36.) Before the evidentiary hearing on the Fourth Amendment
issues, Campbell requested a continuance to be better prepared for the hearing and its procedural
requirements. (IcL at 43.) The court granted the continuance and directed defense counse' to file a
full motion by May 1, setting forth all issues he wished to raise. (Id, at 48.) As instructed, Campbell
filed a second amended motion to suppress.
!

-2-

The evidentiary hearing on the second amended motion to suppress was scheduled for June
!

3, 2015. On that date, Investigator James Begley of the Amherst County Sheriff’s Office testified
. i
that he applied for a search warrant from the magistrate’s office on August 6, 2014. He provided
i

three copies of the supporting affidavit to the magistrate, one for the magistrate to file with the
i

court, one for the officer, and one for the target of the investigation. He testified that the magistrate
j

asked him to make some clerical changes to the affidavit, which he handwrote on the form. The
j

magistrate then signed the search warrant, keeping his copy and giving the other two to' Begley.
Begley then left the magistrate’s office to execute the search warrant.
As required by Virginia Code § 19.2-54, the magistrate faxed the affidavit, warrant, and
blank inventory to the clerk of court. Unfortunately, the clerk received four pages, but not the
correct four pages. The pages the clerk received and filed contained only the first page of the
affidavit (with only the numbers 4, 5, and 6 from the second page superimposed on the firjst page),
two copies of the search warrant, and the blank inventory page. The Commonwealth offered
.
I
Investigator Begley’s copy of the affidavit, signed by the magistrate, to the court, but his copy had
handwritten changes on the first page of the affidavit that were not on the copy filed in the clerk’s
office, and the clerk’s office had handwritten changes that were not on Begley’s copy. Therefore

i
the judge did admit Begley’s copy to prove the basis for the search warrant, because he could not
say that there were not handwritten changes on page two of the affidavit that never reJched the
clerk’s office. (App. 1, pp. 105-106.)
Following the evidentiary hearing, the trial judge entered an order granting Campbell’s
motion to suppress and giving the Commonwealth until June 12, 2015, to advise the court of its
intent to pioceed to trial or dismiss the case. (Id. at 61.) On June 8, the Commonwealth elected to
go forward with trial and filed a motion for reconsideration of the suppression order, arguing for

-3 -

the first time that the search of the property was justified by probable cause and exigent
circumstances, an exception to the search warrant requirement. (Id. at 109-118.) The hekring on
motion for reconsideration and the trial were both set for June 17, 2015, in order to preserve
Campbell’s speedy trial rights. (Id at 119.)
On June 9,2015, the Grand Jury issued a new indictment (Case No. 15015307-00) charging
Campbell with possession of methamphetamine with intent to distribute on August 6, 2014, in
violation of Virginia Code § 18.2-248. (Appendix in Case No. 15015307-00, hereafter “App. 2”,
i

p. 1.) On June 12, 2015, the court appointed counsel for Campbell on the new charge (the same
i

attorney already representing him on the first indictment), and the case was then placed on the
docket “to be tried or set for trial” on June 17, 2015, five days later. (Id at 8.)
I

On June 17, 2015, the court held another evidentiary hearing on the suppression issues.
....
I
Although the judge affirmed his earlier ruling regarding the invalidity of the warrant, heldeferred
decision on the “exigent circumstances” argument, stating he would rule after hearing the evidence
at trial. (Id at 153—156.) He then arraigned Campbell again on the first indictment, and Campbell
i

again tendered a plea of “not guilty.” The court started to arraign him on the second indictment,
but counsel objected on the grounds that he had been appointed only five days earlier and was not
prepared to go forward at that time. (App. 1, pp. 158-159.) The second case was postponed, to be
i

set at or before the August grand jury date. After taking care of that administrative matter,
Campbell proceeded to trial on the first indictment before the judge, without a jury.

!
!

The uncontradicted trial evidence established that a paid informant had Contacted
Investigator Begley about a possible “meth cook” at Campbell’s house in Amherst County. For
about a week, the informant advised Begley that Campbell was unable to secure enough
,

pseudoephedrine to proceed with the “cook”, but on August 6, 2014, in the early afternoon, he

-4-

advised that Campbell had been able to procure Sudafed (pseudoephedrine) and that Campbell
planned to cook meth later that evening. Begley asked the informant to keep him apprised of the
situation, and he began to coordinate manpower with his supervisors and contacted the narcotics
team at the Virginia State., Police (“VSP”). Throughout the afternoon and early evening, the
informant called Begley with updates on the activities at the shed on Campbell’s property,
including that Campbell was crushing Sudafed and that two others were rolling up balls- of
aluminum foil.
!

While the VSP and other officers from Amherst County set up near Campbell’s property,
Begley applied for and obtained a search warrant. He signed the application for search warrant at
i

10:30 p.m., and the magistrate issued the warrant at 10:47 p.m. Investigator Brandon Hurt, a sniper
with the Amherst Sheriff’s Office, took a position in the trees, approximately 25 to 30 yards from
Campbell’s shed, where he remained for approximately 45 minutes before the law enforcement
team entered the property to serve the search warrant. While in that position, Hurt observed a
woman take aluminum foil into the shed and another person take a short piece of hose into the
shed. Just before the team moved in to execute the warrant, Hurt saw smoke coming from inside
the shed and heard people talking either inside or in front of the shed. As law enforcement vehicles
entered the property, occupants of the shed began to run, but they were caught and detained by the
police and identified as Campbell and a codefendant, Timothy Birch. Later, when VSP Special
Agent Phillips entered the shed to remove environmental hazards, he found Campbell’s adult
daughter (another codefendant) hiding inside.
At Campbell’s trial, both Begley and Phillips testified as experts about the hazards of
methamphetamine production. Begley noted that the process uses volatile chemicals that are highly
combustible. Further, the manufacturing process can produce phosphine and chlorine,

-5 -

carcinogenic gasses that can sometimes be fatal. Phillips testified that the one-pot methodiused on
Campbell’s premises that evening is the least hazardous method of manufacturing the product, but
still has significant risks. For example, both lithium strips and organic solvents are used to separate
the Sudafed. Lithium strips react with water, and the moisture of a humid day or residual moisture
in Coleman fuel can spark fire from the lithium strips, triggering an explosion, like a pjlume or
fireball. The process also produces ammonia gas, which can cause respiratory distress, blindness,
or even death if inhaled in sufficient quantities. Ammonia gas can also cause glass containers to
explode.2
Campbell did not introduce any evidence on his own behalf. The trial judge found that the

I|

Commonwealth proved both probable cause and exigent circumstances sufficient to justify a
warrantless search of Campbell’s property, and denied Campbell’s motion to exclude the evidence
obtained as a result of the search. He then found the evidence sufficient to convict Campbell of the
charge, noting that, “[T]he nature and the quantity of this process would lead the court to believe
that there was an intent to sell, give, or distribute the substance that was involved.” (App. 1, p.
i

333). He entered a conviction order the same date, reflecting a conviction for manufacturing

i

methamphetamine in violation of Virginia Code § 18.2-248. On August 26, 2014, the court
sentenced Campbell to twenty-five years in prison, with fourteen years of the sentence suspended.
Campbell noted his appeal to the Virginia Court of Appeals.
While the appeal of the first case was still pending, the parties scheduled a trial date for the
.!

second indictment. Campbell then filed a motion to dismiss, alleging that the second in iictment
was barred by the Fifth Amendment’s Double Jeopardy Clause and by Virginia Code § 19.2-294,

2 Other witnesses testified against Campbell at the trial, including the informant and Campbell’s
daughter, but the substance of their testimony is not relevant to determination of the issues in this
proceeding.
-6-

i
and a motion to suppress, arguing the same grounds relied upon in the first case. On November 9,
i

2014, after incorporating the record of the first case into the record for the second case, the court
overruled both motions. Campbell then entered a plea agreement with the Commonwealth,

i
preserving his right to appeal both motions pursuant to Virginia Code § 19.2-254. Campbell pled
guilty and, pursuant to the plea agreement, the court sentenced him to eleven years in prison, to
run concurrently with the sentence in the first case, followed by two years of post-release
■

.

i

supervision. Once again, Campbell perfected an appeal to the Virginia Court of Appeals.
On October 25, 2016, the Court of Appeals reversed Campbell’s conviction on the first
indictment, finding that failure to file timely and properly the second page of the search; warrant
i

affidavit as required by Virginia Code § 19.2-54 required suppression of the evidence. Campbell
v. Commonwealth, 791 S.E.2d 351 (Va. Ct. App. 2016), rev’d, 807 S.E.2d 735 (Va. 2017), certdenied, 139 S. Ct. 421 (2018), reh’g denied, 139 S. Ct. 1244 (2019). Holding that the statute
provided broader protection than the Fourth Amendment, the court held that the Fourth
Amendment became “irrelevant” once the warrant was struck on state law grounds. IcL at;356 n.2.
i

Further, because police obtained a warrant, the search was not a warrantless search, so exceptions
to the search warrant requirement did not apply. Id.
The Virginia Supreme Court reversed the decision of the Court of Appeals and reinstated
Campbell’s conviction on December 14, 2017. Commonwealth v. Campbell, 807 S.E.2d at 740.
The Court assumed without deciding that the search warrant was invalid under Virginia Code
§ 19.2-54, but held that invalidity of the search warrant under the statute (or under the Fourth
Amendment) did not preclude a valid warrantless search if the Commonwealth met the burden of
proving an exception to the warrant requirement. IcL at 738. Campbell’s subsequent requests for
rehearing and appeal were denied.

-7-

While the first case was pending review in the Virginia Supreme Court, the Court of
i

Appeals stayed proceedings in the second case. Once the Virginia Supreme Court reinstated the
first conviction, the Court of Appeals followed its decision as the “law of the case,” affirming the
trial court’s ..denial of Campbell’s motion to suppress in the second case. Campbell v.y
Commonwealth. 817 S.E.2d 663, 667 (Va. Ct. App. 2018). The Court of Appeals also affirmed
the conviction, finding no statutory or double jeopardy bar to the second proceeding Ibecause
Campbell’s request to continue trial of the second charge was a consent to two trials and a
voluntary waiver of any double jeopardy objection. IT at 668-70. The Virginia Supreme Court
declined to hear Campbell’s appeal from the Court of Appeals. Campbell did not file a state habeas
petition.

:

On June 19, 2018, Campbell filed a Petition for Writ of Habeas Corpus, pursuant to 28
U.S.C. § 2254, in this court. In his petition, Campbell raises five challenges:
1. That the state court erred in permitting admission of evidence under the: exigent
circumstances exception to the search warrant requirement when the state’s search warrant
was invalid under Virginia Code § 19.2-54;
I

I

2. That the state court erred in allowing admission of evidence under the i exigent
circumstances exception to the search warrant requirement when the search warrant was
invalid under the Fourth Amendment and the “good faith exception” was not app' icable;
3. That the state court erred in finding the existence of exigent circumstances to justify a
warrantless search;
I
i
4. That the state court erred in failing to dismiss the second indictment under Virginia Code
§ 19.2-294; and
5. That the state court erred in failing to dismiss the second indictment for violating his
constitutional right against double jeopardy.
[ECFNo. 1, p. 20.]

-8-

II.
A federal court may grant a petitioner habeas relief from a state court judgment “only on
the ground that he is in custody in violation of the Constitution or laws or treaties of the United

i

States.” 28 U.S.C. § 2254 (a). “It is not the province of a federal habeas court to reexamine statecourt determinations on state-law questions.” Estelle v. McGuire. 502 U.S. 62, 67-68 (1991). The
Virginia Supreme Court’s decision that a violation of Virginia Code § 19.2-54 does not preclude
admission of evidence under the exigent circumstances exception to the Fourth Amendment search
warrant requirement is a claim that rests solely on the interpretation of Virginia statutes and case
i

law, and as such, it is not cognizable on federal habeas review unless petitioner alleges that the
state court’s application of the statute is a cognizable violation of the federal constitution. See. e.g„
i

Wright v. Angelone, 151 F.3d 151, 158 (4th Cir. 1998). Campbell alleges that the state court
decisions violate the Fourth Amendment of the U.S. Constitution, and I address those allegations
in the next section, but Campbell’s first claim is based only on the Virginia statute and, therefore,
must be dismissed.
III.
If a state prisoner had the opportunity for full and fair litigation of a Fourth Amendment
claim, he is not entitled to federal habeas relief on the ground that the evidence obtained in an
|

unconstitutional search or seizure was introduced at his trial. Stone v. Powell. 428 U.S. 465, 494
(1986). This is because the social costs of the exclusionary rule are high. Id at 490. The evidence
that a defendant seeks to exclude is usually reliable and is often the most compelling evidence of
guilt. Id, Application of the exclusionary rule cripples the “truthfinding process” and sometimes
allows the guilty to go free. Id. Despite these costs, the Supreme Court and others have found it
necessary for society to pay this cost in order to deter police misconduct and promote respect for

-9-

it

I
I

Fourth Amendment values. Id at 490-91. Once a defendant has had the opportunity to raise his
i

Fourth Amendment challenges before a trial court and at least one appellate court, however, there
is little deterrent benefit in allowing further litigation of the issue, and even less benefit to reversing

-F

a conviction because evidence is suddenly deemed inadmissible, even though at least two prior
courts had the opportunity to consider the constitutionality of the search from which evidence was
obtained. Id. at 491. The decreasing deterrent value of continued efforts to exclude evidence no
longer outweighs the social costs of the exclusionary rule when a case has reached this stage. Id.
at 491-93.
When considering a petitioner’s Fourth Amendment claims, then, a federal district court’s
first inquiry is whether the petitioner had an opportunity to raise his Fourth Amendment!claim in *
the highest state court. Doleman v. Muncy. 579 F.2d 1258, 1265 (4th Cir. 1978). If such an
opportunity was afforded to the petitioner, and nothing in the claim or in the record suggests that
the prisoner’s opportunity to fully and fairly litigate his claim was impaired, then the court need
look no further into the Fourth Amendment claims.
!

In the present case, Campbell had several opportunities to litigate his Fourth Amendment V
claims, and he took full advantage of each opportunity. He argued before the trial court that the
search warrant was invalid under the Fourth Amendment because the probable cause statement
I

was missing in the affidavit filed with the clerk’s office. The trial court agreed with him arid further
i

agreed that the “good-faith exception” for officer reliance on the warrant, recognized in United
*

States v. Leon, 468 U.S. 1250 (1984), did not apply. But the trial court also found that the exigent
circumstances exception to the warrant requirement applied. Campbell appealed to the Court of
Appeals, where his argument was adopted and the trial court’s ruling was reversed. Then, the

t~

Virginia Supreme Court heard the merits of the case and reinstated the conviction. The United y

- 10-

f

States Supreme Court denied certiorari. In short, Campbell fully and capably litigated the Fourth
Amendment issue before three different state tribunals. The Virginia courts provided Campbell a
full and fair opportunity to litigate the Fourth Amendment claims he raised, both that the exigent
circumstances exception did not apply if the police relied on an invalid warrant and that the
Commonwealth failed to establish exigent circumstances. Accordingly, Stone precludes habeas
relief on Campbell’s second and third claims.
IV.
Like his first claim, Campbell’s claim that his trial on the second indictment violated
Virginia Code § 19.2-294 arises solely under state law and is not cognizable On habeas review
under 28 U.S.C. § 2254 (a) and Estelle v. McGuire, 502 U.S. 62 (1991). Thus, his fourth claim
must also be dismissed.
V.
Resolution of Campbell’s fifth claim, that the second indictment was barred by principles
of double jeopardy, requires more complex analysis. Under § 2254, a very deferential st£ ndard of
review applies to state court decisions that have adjudicated a petitioner’s claims on the merits. In
such a case, habeas relief shall not be granted unless the state court’s decision was “contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1).
In this case, the Virginia Court of Appeals clearly addressed Campbell’s double jeopardy
claim. Campbell v. Commonwealth. 817S.E.2d 663 (Va. Ct. App. 2018). The Virginia Supreme
Court summarily denied Campbell’s petition for further appeal. The United States Supreme Court
has held that such denials are presumed to be decisions on the merits of the claim. Harrington v.
Richter. 562 U.S. 86, 99 (2011). Further, a federal court on habeas review is to “look through” the

- 11 -

summary decision to the last court decision providing a rationale for the merits decision and to
presume that the state high court adopted the same reasoning. Wilson v. Sellers. 138 S. (Dt. 1188,
1192(2018).
Having determined that Virginia courts addressed the Campbell’s claim, the next issue is
whether the Court of Appeals opinion is contrary to, or involves an unreasonable application of,
I

clearly established Supreme Court law. The threshold question is whether there is any'“clearly
established Federal law, as determined by the Supreme Court.” Lockver v. Andrade. 538 U.S. 63,
71 (2003). In order to be clearly established law, the position urged by the habeas petitioner must
have been pronounced by the Supreme Court in its holding (not dictum), and the Court’s holding ■
must have been announced before the state court’s final decision on the merits. Williams vl. Taylor.
529 U.S. 362, 412 (2000).
The Virginia Court of Appeals based its decision on a recent Supreme Court decision,

I
Currier v. Virginia, 138 S. Ct. 2144 (2018). In Currier, the defendant was charged inja single
indictment with burglary, grand larceny, and unlawful possession of a firearm by a convicted felon,

I

arising from a single course of conduct. Id. at 2148. As alleged by the Commonwealth, the
defendant had broken into a home and stolen a safe containing cash and guns; because of his prior
felony conviction, he could not legally possess any firearm, much less a stolen one. Concerned
that a jury might be prejudiced against him by learning of his prior felony conviction, the defendant
moved to sever the firearm charge from the other two. At the first trial, limited to the burglary and
grand larceny charges, the jury acquitted the defendant. He then moved to preclude the second trial
on double jeopardy grounds. Id. at 2148-2149. Assuming without deciding that double jeopardy
would normally apply to a successive prosecution for the firearm charge, the Supreme Court held
that “there is no violation of the Double Jeopardy Clause when [the defendant] elects to have the

-12-

... offenses tried separately and persuades the trial court to honor his election.” Id. at 215 (quoting
Jeffers v. United States. 432 U.S. 137,152 (1977)). Accordingly, the state court denied Campbell’s
(_s.ru.

J
>3'<'

double jeopardy claim.
I cannot conclude the Virginia court’s decision is “contrary to” federal law. A state decision
can be contrary to Supreme Court precedent in only one of two ways: (1) by reaching a conclusion
opposite to the Supreme Court’s decision or (2) by reaching the opposite result from the Court on
facts that are materially indistinguishable from the facts in the Court’s case. Williams. 529 U.S. at
405 (O’Connor, J., concurring). The Virginia Court did not reach an opposite result or conclusion
from the Supreme Court’s decision in Currier.
Admittedly, Currier is distinguishable from the present case in one significant way:
Campbell’s charges were not initiated in a single indictment, and the second indictment issued
only five days before the trial date scheduled for the first indictment. The Virginia court did not
consider this distinction significant. Even if I were to believe that the Virginia Court of Appeals
decided the issue erroneously, that is not sufficient for a grant of habeas relief. When the state
court decision is not contrary to Supreme Court precedent, a federal habeas court must find the
state decision to be an “unreasonable application” of Court precedent in order to grant relief.
Lockver. 538 U.S. at 75. A decision is an “unreasonable application” of Court precedent only if
the state court’s ruling “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility of fairminded disagreement.” Harrington.
562 U.S. at 103. Where the trial court, appeals court, and presumptively, the state high court all
agreed that Campbell’s request for a later trial date removed double jeopardy concerns, I cannot
say that no fair-minded jurists could agree with the decision, especially in the absence of any

- 13 -

-A

precedent involving separate indictments such as those herein.3 As the Court has noted, when its
cases give no clear answer to the exact question presented, let alone an answer favorable to the
petitioner, “it cannot be said that the state court ‘unreasonably] applied] clearly established
Federal law.”’ Wright v. Van Patten. 552 U.S. 120, 126 (2008) (citations omitted). Accorjdingly, I
i

will dismiss Campbell’s fifth and final claim.

■
VI.

In accordance with the foregoing, I will grant the respondent’s Motion to Dismiss. An
appropriate Order will enter this day.
The Clerk is directed to send copies of this Memorandum Opinion and accompanying
Order to petitioner and to counsel of record for the respondent.
ENTERED this

day of October, 2019.
I

•v
SENIOR

Jp mA ah,
ITED STATES DISTRICT JUDGE

I

3 Even had I reached the substance of Campbell’s double jeopardy argument rather thanldeciding
that he had waived the issue, his constitutional claim would fail on the merits. The Double Jeopardy Clause
prohibits a second prosecution for the same offense after either acquittal or conviction; whether ah offense
is the “same offense” when a single act or transaction gives rise to two different charges, however, is
determined by the Blockburger test, recognized in the seminal case Blockburger v. United States. 284 U.S.
299 (1932). That test focuses on whether each offense requires proof of a fact which the other doe's not. Id.
at 304. If so, then double jeopardy does not bar the second prosecution. In this case, Campbell’s first
conviction was for manufacturing methamphetamine, which requires proof that he knowingly made the
unlawful substance; possession with intent to distribute does not require that the defendant make the
substance, just that he have it. His second conviction, possession with intent to distribute methamplietamine,
required proof of the specific intent to distribute, which is not required for a conviction of manufacturing.
Because each offense required proof of an element that the other did not, the second charge did nbt violate
the Double Jeopardy Clause of the Fifth Amendment to the United States Constitution. Cf, Logan v.
Commonwealth, 600 S.E.2d 133, 133-35 (Va. Ct. App. 2004) (holding that convictions for possession of
marijuana and delivering marijuana to a prisoner, both made illegal by the same section of the'Virginia
Code, did not violate the defendant’s Double Jeopardy rights). This rule applies even when the same act
violates two clauses of the same statute. See, e.g„ United States v. Randall. 171 F.3d 195, 209 ‘(4th Cir.
1999).
1
- 14-

i|lb>

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
JAMES W. CAMPBELL, SR.,

)
)

Petitioner,

)

Respondent.

)
)
)
)
)
)

v.
TAMMY BROWN,

OCT,2 'V20I9

CASE NO. 7:18CV0’0277
FINAL ORDER
By: Hon. Jackson L. Kiser
!
Senior United States District Judge

In accordance with the accompanying Memorandum Opinion, it is hereby
ADJUDGED AND ORDERED
that the Motion to Dismiss [ECF No. 25] is GRANTED, the petition for a writ of habeas corpus,
pursuant to 28 U.S.C. § 2254, is DISMISSED, and this action is stricken from the active docket
of the court.
Further, finding that petitioner has failed to make a substantial showing of the denial of a
constitutional right as required by 28 U.S.C. § 2253(c)(1), a certificate of appealability is
DENIED.
ENTERED thiST

day of October, 2019.

h

(^S^/roKAlMinED^SIATES piST^CLJLlDGE

FILED: August 20, 2020 .
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7706
(7:18-cv-00277-JLK-RSB)

JAMES W. CAMPBELL
Petitioner - Appellant
v.
TAMMY BROWN, Warden
Respondent - Appellee

ORDER
The court denies the motion for extension of time to file a petition for
rehearing without prejudice to refiling the extension motion accompanied by the
proposed petition for rehearing on or before 09/21/2020.
For the Court—By Direction
/s/Patricia S. Connor, Clerk

www/ \—r / \f»/c>ui.

\J' t i vv

L/W.

fc“T

IIVU.

I \JI £.1 / t—\J^ \J

I

I

VI

FILED: October 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7706
(7:18-cv-00277-JLK-RSB)

JAMES W. CAMPBELL
Petitioner - Appellant
v.
TAMMY BROWN, Warden
Respondent - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

£#/L
FILED: September 4, 2020

!■

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

- No. 19-7706
(7:18-cv-00277-JLK-RSB)

JAMES W. CAMPBELL
Petitioner - Appellant
v.

TAMMY BROWN, Warden
Respondent - Appellee

ORDER
Upon consideration of appellant’s motion to stay the mandate, construed as a
motion to recall the mandate and extend the time for filing a petition for rehearing,
the court grant’s the motion. This court's mandate issued 08/18/20, is recalled for
the limited purpose of considering the petition for rehearing.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

fifft/ubix ig> ez: ’)

PRESENT: All the Justices
COMMONWEALTH OF VIRGINIA
v. Record No. 161676
JAMES WILLIS CAMPBELL, SR.

OPINION BY
JUSTICE STEPHEN R. McCULLOUGH
December ,14,2017

FROM THE COURT OF APPEALS OF VIRGINIA
We consider in this appeal whether evidence of a search must be suppressed under Code
§ 19.2-54 because a magistrate incorrectly faxed only portions of a searcji warrant to the clerk of ^
the circuit court. The Court of Appeals concluded that this delivery defect meant that the search
warrant did not satisfy the requirements of Code § 19.2-54 and, as a consequence, the warrant,
and the search made under the authority of that warrant, were invalid. We will assume that the
magistrate’s incomplete faxing rendered the search warrant invalid under Code § 19.2-54, but we
—2-

will reverse on the alternate ground that the search was justified as a warrantless search under the
exigent circumstances,exception to the warrant requirement.
V

BACKGROUND
I.

A TIP ARRIVES ABOUT AN IMMINENT METHAMPHETAMINE “COOK.”

For over a week in early August 2014, Sheriffs Office Investigator James Begley had
been m contact with a paid informant about a possible “meth cook” at James Campbell’s house.
A “cook” refers to the process for making methamphetamine. Initially, Campbell’s efforts were
thwarted because he could not locate sufficient quantities of pseudoephedrine to proceed.

y

Finally, on August 6, 2014, Investigator Begley received multiple phone calls from the
informant, who told him “it looked like ... there was going to be a cook at Mr. Campbell’s
,hoiig_e-” .T1ieinformant, who was present at the scene, described to Investigator Begley what was

\
7

V .

-'V-

occurring on Campbell’s property in anticipation of the “cook,” such as rolling up aluminum foil
and crushing Sudafed.
Begley told the informant to keep him “apprised.” He then contacted a specialized team
at the State Police as well as his superiors within the Sheriffs Office. As Investigator Begley
was making his preparations, the informant told Begley that Campbell was “preparing the stuff
now in the shed.” While other law enforcement officers were positioning themselves near
Campbell’s shed, Begley applied for and obtained a search warrant. Investigator Begley signed
his copy of the application for the search warrant at 10:30 p,m. The warrant reflects that the
magistrate issued the warrant at 10:47 p.m. Investigator Brandon Hurt was able to observe the
activity on Campbell’s property for between 45 minutes to an hour before the team executed the
warrant.
^

Law enforcement officers drove to a location near Campbell’s property and assembled in

the woods to observe. The “cook” was to take place in a small shed on Campbell’s property.
Begley estimated the shed’s dimensions were, at most, 10 feet by 12 feet. Campbell’s trailer is
located near the shed, and a driveway separates Campbell’s trailer from the shed. Another
mobile home is located 25 to 30 yards from the shed. Investigator Brandon Hurt with the
Sheriffs Office took a position approximately 25 to 30 yards from the shed. He watched for
approximately 45 minutes to an hour. Four persons were present at Campbell’s home: the
defendant, his daughter, Timothy Birch, and the informant. Investigator Hurt could see a woman
taking a roll of aluminum foil from the trailer to the shed. He also observed a man taking a short
piece of hose into the shed. Hurt could see “a lot of smoke” coming from inside the shed and he
could hear people talking “either in front of the shed or inside the shed.”

2

.....
»

Special Agent Glen Phillips of the Virginia State Police explained that the manufacture of
methamphetamine presents a significant fire hazard. In addition, manufacturing
methamphetamine employs and creates toxic substances, including ammonia gas, which can
cause respiratory difficulties or blindness and even death. Investigator Begley, who has
experience with methamphetamine investigations and who has been trained on the subject,
testified that methamphetamine is manufactured with volatile chemicals that are highly
combustible. It can produce an “extremely carcinogenic” gas, including phosphine gas and
chlorine gas. Investigator Begley acknowledged he did not know what the “blast radius” would
be for the type of methamphetamine “cook” that occurred at the shed.
The informant, who was present at the scene, stepped aside to call Investigator Begley on
his cell phone and plead with him, “where y’all at, where y’all at, they’re starting to make this
thing, man. Police executed the search warrant around 11:52 p.m., approximately an hour after
Investigator Begley submitted his search warrant application to the magistrate. Police recovered
methamphetamine and precursors to methamphetamine during the search.
II.

The suppression motion, trial and appeal.

Code § 19.2-54 imposes a number of requirements for search warrants. As relevant here,
it requires a judicial officer issuing a warrant, usually a magistrate, to file the affidavit submitted
in support of the warrant by law enforcement personnel with the clerk of the circuit court of the
city or county where the search is to take place, either in person, by mail, or electronically.
within seven days. The final paragraph of Code § 19.2-54 provides as follows:
Failure of the officer [here, a magistrate] issuing such warrant to
file the required affidavit shall not invalidate any search made
under the warrant unless such failure shall continue for a period of
________ 30 days. If the affidavit is filed prior to the expiration of the____ _
30-day period, nevertheless, evidence obtained in any such search

3

r- ’

shall not be admissible until a reasonable time after the filing of the
required affidavit.
Investigator Begley explained that the magistrate ordinarily asks for three copies of the
warrant affidavit: one for the police officer, one for the target of the investigation, and one for
the magistrate who will file it with the clerk of court. In this instance, Begley handed the
magistrate one copy and left with the remaining two.
Due to a faxing error or problem, the clerk of court never received a complete affidavit,
fhe magistrate submitted four pages to the clerk oi court by fax. The first page consists of the
affidavit for the search warrant. The second page is the search warrant itself. The third page is a
duplicate of the search warrant. The final page is a blank copy of the search inventory and
/
-•'7'

return. The affidavit page the clerk received included a description of the offense, a paragraph
describing the place to be searched, and another paragraph listing the things or persons to be
searched. The second, missing page, contained a paragraph describing the basis for probable
cause and another paragraph setting forth the fact that the information came from an informant
and setting forth the basis fbr the officer’s belief that the informant was credible or reliable.
Campbell was charged with manufacturing methamphetamine, in violation of Code §
18.2-248. Seizing on the fax problem, Campbell moved to suppress the evidence. Relying on
Code § 19.2-54, he argued that the magistrate’s failure to timely file the required application and
affidavit with the clerk’s office rendered the warrant invalid. The Commonwealth responded,
among other things, that even without a warrant, the search was justified by exigent
circumstances. The trial court ultimately agreed that the warrant was defective, but denied the
suppression motion, concluding that the search was justified by exigent circumstances.
Campbell was convicted and sentenced to serve twenty-five years in prison, with fourteen years
suspended.

4

t-

Campbell appealed to the Court of Appeals. A panel of that court reversed the trial
court’s decision, reasoning that Code § 19.2-54 rendered the fruits of the search categorically
inadmissible as a matter of state law. Campbell v. Commonwealth, 66 Va. App. 677, 791 S.E.2d
351 (2016). The Court rejected the Commonwealth’s alternative arguments on the basis that the
admissibility of the search under the Fourth Amendment was irrelevant because, “[a]s a matter of
state law, the evidence was inadmissible.” Id. at 688, 791 S.E.2d at 356. We granted the
Commonwealth an appeal from that decision.
ANALYSIS
1.

Code § 19.2-54 does not apply if a search is justified as a warrantless
SEARCH.

Initially, we conclude that Code § 19.2-54 does not impose any bar to the admissibility of
the fruits of warrantless searches. This statute governs search warrants. It provides in relevant
part that the
[fjailure of the officer [here, a magistrate] issuing such warrant to
file the required affidavit shall not invalidate any search made
under the warrant unless such failure shall continue for a period of
30 days. If the affidavit is filed prior to the expiration of the
30-day period, nevertheless, evidence obtained in any such search
shall not be admissible until a reasonable time after the filing of the
required affidavit.
(Emphases added.) Code § 19.2-54 addresses the possible invalidity of a search made “under the
warrant” as a consequence of the failure of the magistrate to file the warrant with the cleric of the
circuit court. Whatever the scope of inadmissibility contemplated by Code § 19.2-54 for
searches made under a defective warrant, nothing in the plain language of this statute compels
the exclusion of evidence obtained in the course of a search that is justified on grounds other

5

than a warrant.1 We will assume that the search warrant was invalid under Code § 19.2-54. We
turn next to the question of whether the search was justified as a warrantless search under the
exigent circumstances doctrine.
II.

Exigent circumstances justified a warrantless search.

The Fourth Amendment generally requires police to obtain a search warrant before
entering a home. See, e.g., Commonwealth v. Robertson, 275 Va. 559, 564, 659 S.E.2d 321, 324
(2008). Despite the absence or a warrant, however, police may lawfully enter a home, and
outbuildings like a shed, if they have probable cause coupled with exigent circumstances. Kirk v.
Louisiana, 536 U.S. 635, 638 (2002) (per curiam). The exigent circumstances exception to the
warrant requirement “applies when ‘the exigencies of the situation make the needs of law
enforcement so compelling that [a] warrantless search is objectively reasonable under the Fourth
Amendment.

Kentucky v. King, 563 U.S. 452, 460 (2011) (quoting Mincey v. Arizona, A3>1

U.S. 385, 394 (1978)) (some internal quotation marks omitted).
The United States Supreme Court has not squarely addressed whether a search under a
defective warrant can nevertheless be upheld on an independent ground such as exigent
circumstances.2 We conclude, as have a number of other courts, that the procurement of a

In addition to expressing no opinion concerning the existence or scope of any
suppression remedy under Code § ! 9.2-54, we also need not reach the Commonwealth’s
alternate argument that an implicit statutory good faith exception can salvage the fruits of a
search even if the warrant is defective under Code § 19.2-54.
2 In Groh v. Ramirez, 540 U.S. 551, 558 (2004), the Court observed that “the warrant was
so obviously deficient that we must regard the search as ‘warrantless’ within the meaning of our
case law.’' However, the Court found the search unjustified as a warrantless search as well. Id.
at 565. Similarly, in Coolidge v. New Hampshire, 403 U.S. 443, 453 (1971), the Court stated
that the seizure and search of the Pontiac automobile cannot constitutionally rest upon the
warrant issued. .. . [T]he search stands on no firmer ground than if there had been no warranur
all. If the seizure and search are to be justified, they must, therefore, be justified on some other
theory.” Again, however, the Court concluded that none of the exceptions could justify the
6

.-A.'-.-?

defective warrant does not require suppression if the search is nonetheless justified on an
alternate ground.3
First, as a conceptual matter, it is the ultimate reasonableness of the search that matters
under the Constitution. See Ohio v. Robinette, 519 U.S. 33, 39 (1996) (“[T]he touchstone of the
Fourth Amendment is reasonableness.”) (citation omitted). “Reasonableness, in turn, is
measured in objective terms by examining the totality of the circumstances.” Id. Furthermore,
the Supreme Court has “consistently eschewed bright-line rules, instead emphasizing the factspecific nature of the reasonableness inquiry.” Id. If the search was objectively reasonable
under an independent ground, there is no reason to order the suppression of evidence. Because
the test for exigent circumstances is an objective one, King, 563 U.S. at 460, 464, the fact that a
diligent and conscientious officer acting under time-pressure actually succeeds in obtaining a

seizure of the car under the facts of that case. Id. at 473. At a minimum, these statements are not
antithetical to the approach we adopt.
3 See Graves v. Mahoning Cnty., 821 F.3d 772, 775 (6th Cir. 2016) (reasoning, in a
§ 1983 case, that [t]he plaintiffs may not prevail merely by showing that they were arrested with
a defective warrant; they must show that they were unreasonably seized” and that the Fourth
Amendment “prohibits ‘unreasonable searches and seizures,’ not warrantless ones”)- United
States v. Poole, 718 F.2d 671, 675 (4th Cir. 1983) (upholding search on the basis of exigent
circumstances despite defects in the search warrant); United States v. Clark, 559 F.2d 420, 426
(5th Cir. 1977) (noting that “[i]t is well established that evidence gained by a search conducted
under authority of a defective search warrant may still be admissible if an exception to the
warrant requirement is present” and upholding the search under the automobile exception)- White
v. United States, 448 F.2d 250, 254 (8th Cir. 1971) (“While the defendant has attacked the’
validity of the search warrant in this case, we do not find it necessary to pass on this question,
because we believe that the search can be justified as a warrantless search.”); State v. Tomah,
586 A.2d 1267, 1268-69 (Me. 1991) (“Because these officers could have searched defendant’s
vehicle without a warrant, they should not be penalized because they attempted to get a warrant
[that turned out to be defective].”); Adkins v. State, 111 S.W.2d 363, 365-66 (Tex. Ct. App.
l^J!lI]he_ac^procurjng of a warrant does not preclude the use of exigent circumstances__
to justify a search, should the warrant fail.”); State v. Bradley, 227 S.E.2d 776, 779 (Ga. Ct. App.
1976) (“[T]he fact that a defective warrant has issued between the time of the seizure and the
search will not destroy the validity of that search as a ‘reasonable’ warrantless search.”).
7

{->■

warrant does not mean that another officer under the same pressure is objectively unreasonable
for responding without seeking a warrant. Therefore, we conclude that the existence of a
technically defective warrant does not require suppression of evidence if the search may be
justified on an independent ground.4
Of course, when the government has obtained evidence based on a warrantless search, the
burden rests with the government to prove probable cause and exigent circumstances. Verez v.
Commonwealth, 230 Va. 405, 410, 337 S.E.2d 749, 753 (1985).
The issue comes down to this: if Investigator Begley had not obtained a warrant under
the circumstances he faced, and had instead assembled the law enforcement team and raced to
the scene of the “meth cook” that was either on the cusp of, or actually was, taking place, would
such a warrantless search be justified under the exigent circumstances exception to the warrant
requirement? We conclude the answer is “yes.”
In Verez, 230 Va. at 410-11, 337 S.E.2d at 753, we set forth a non-exclusive list of
factors relevant to a determination of exigent circumstances:
(1) the degree of urgency involved and the time required to get a
warrant; (2) the officers’ reasonable belief that contraband is about
to be removed or destroyed; (3) the possibility of danger to others,
including police officers left to guard the site; (4) information that
the possessors of the contraband are aware that the police may be
on their trail; (5) whether the offense is serious, or involves
violence; (6) whether officers reasonably beiieve the suspecis are
armed; (7) whether there is, at the time of entry, a clear showing of
probable cause; (8) whether the officers have strong reason to
believe the suspects are actually present in the premises; (9) the
likelihood of escape if the suspects are not swiftly apprehended;
and (10) the suspects’ recent entry into the premises after hot
pursuit.

4 We note parenthetically that any defect inthe Validity of the warrant under state law
does not, of itself, invalidate the warrant under the United States Constitution. See e e Virginia
v. Moore, 553 U.S. 164, 171 (2008).
8

r'1*

First, as to probable cause, Investigator Begley received a detailed series of tips from a
known reliable informant about a “meth cook” that was about to take place. Police officers
personally observed conduct consistent with the informant’s tips. The existence of probable
cause is not in doubt here.
Second, the officers were aware of the dangers inherent in the manufacture of
methamphetamine. Investigator Begley and Special Agent Phillips both testified about the
highly toxic, nature of the chemicals employed in the process and the grave danger that exposure
to these substances can present. They also explained the serious risk of fire or explosion that
inheres in the enterprise. Many courts have pointed to the dangers associated with the
manufacture of methamphetamine in upholding a finding of exigent circumstances. See, e.g.,
United States v. Walsh, 299 F.3d 729, 734 (8th Cir. 2002) (“The potential hazards of
methamphetamine manufacture are well documented, and numerous cases have upheld limited
warrantless searches by police officers who had probable cause to believe they had uncovered an
on -going methamphetamine manufacturing operation.”) (collecting cases). In the present case,
the officers could hear the voices of individuals either inside or immediately outside of the shed
where the “meth cook” was allegedly taking place, and they knew that multiple persons were in
danger of fire, explosion, or toxic exposure.5 As it turns out, nobody was injured. But at the
time Investigator Begley received the last in a series of tips from the informant, he did not have
the benefit of hindsight.
Third, the degree of urgency involved is also a relevant consideration. The informant
told Investigator Begley that a “meth cook” was about to occur - not that it would occur the next

5 We reject Campbell’s argument that those present had assumed the risk of death or~
serious injury, and that this assumption of the risk defeats exigent circumstances. The exigency
arising from the need to protect human life extends to the guilty as well as the innocent.
9

/

•• A

day or the week after. Although Investigator Begley was able to quickly obtain a warrant, the
facts confronting him would have justified a decision to proceed immediately to the scene.
When Investigator Begley received a series of increasingly agitated tips about the impending
“meth cook,” time was of the essence.

V

Fourth, the gravity of the offense is a relevant consideration when examining the
presence of exigent circumstances. Welsh v. Wisconsin, 466 U.S. 740, 750-52 (1984). In Welsh,
the Court concluded that oygqiit circumstances were not present when the offense tissue .was

/
(
)i
\
■

-V-

“extremely minor,” such as a non-jailable traffic violation. Id. at 753. In contrast, the
manufacture of methamphetamine can in no way be deemed to be “minor”; rather, it is a felony
that carries a punishment range of five to forty years, and even longer sentences in some
circumstances. See Code § 18.2-248. One of those circumstances, which calls for a mandatory
minimum sentence of five years and a maximum sentence of life in prison, is the manufacture of
ten grams or more of methamphetamine. Code § 18.2-248(C)(4).
Finally, the disposability of evidence and the risk of flight are also relevant
‘•A

considerations. As the trial court noted, the ingredients needed to make methamphetamines
could be readily “hidden, poured out, [or] disposed of.” In addition, because the search in this
case took place at night, it would have been easier for one or more of the perpetrators to escape
under cover of darkness. Beth of these circumstances further support a finding of exigent
circumstances.
CONCLUSION
For the foregoing reasons, we will reverse the judgment of the Court of Appeals, reinstate

J

the trial court s order of conviction, and enter final judgment for the Commonwealth.
Reversed andfinaljudgment.

10
L.

3-)
/■

S'.

COURT OF APPEALS OF VIRGINIA
)

V

Present: Judges Humphreys, Chafrn and Senior Judge Clements
Argued at Lexington, Virginia
•/'•I.

C

jgj

f.

JAMES WILLIS CAMPBELL, SR.

■ OPINION BY
JUDGE TERESA M. CHAFIN
AUGUST 21. 2018

i

-J;

Record No. 1923-15-3

V.

f

\9

V

'COMMONWEALTH OF VIRGINIA /
\. ^—’

I

<<

/
/

£

V

1

\

FROM JHE CIRCUIT COURT OF AMHERST COUNTY
J. Michael Gamble, Judge

■

C

j -

■/

Robert C. Goad, III (Shrader & Goad, on brief), for appellant.

A

y~-

!

Katherine Quinlan Adelfio, Assistant Attorney General (Mark R.
Herring, Attorney General, on brief), for appellee.

/

I

-

\

>V;

Following a bench trial, James Willi? Campbell/ Sr., was convicted of possession with the
;;

!

intent to distribute methamphetamine, in violation of Code § 18.2-248. On appeal, Campbell
T
challenges the trial court's denial of his motion to suppress evidence obtained from a police search

y

I

•

•

r

' [__->A

•<1
j

of his property. He further assigns error to the trial court’s denial of his motion to dismiss the

/■/

f

i

K

indictment for possession with intent to distribute and the trial court’s ruling that • he case was not
~v

barred by double jeopardy principles or by Code § 19.2-294. For the reasons that follow, we affirm
/

the decision of the trial court.

i

i

%

\

i

«*. •
1

'1

\

V

\
-c. ■
\

\

■

!

Campbell was also convicted of manufacturing methamphetamine in violation of Code
§ 18.2-248 in a separate proceeding. On appeal, this Court reversed his manufacturing conviction
on October 25,2016. See Campbell v. Commonwealth. 66 Va. App. 677, 791 S.E.?.d 351 (2016).
The Commonwealth appealed to the Supreme Court of Virginia. On December 14, 2017, the
Supreme Court reversed the Court of Appeals decision, reinstating Campbell’s manufacturing
conviction. See Commonwealth v. Campbell, 294 Va. 486, 807 S.E.2d 735 (2017). The instant
appeal was held in abeyance by this Court pending the Supreme Court’s decision in the
\ \
manufacturing ease.
\
\

\v

\
\

*

/
/
/
y
f

/
/

I

Background
On August 6, 2014, Kevin Lockhart, a confidential informant, contacted Investigator
James Begley to inform him that a “meth cook” was going to happen in a shed on Campbell’s
property. Begley told Lockhart to keep him “apprised” of the situation. Begley then made
preparations in advance of receiving word from Lockhart that “the cook” was underway. He
contacted the Virginia State Police to inform the tactical team of the impending situation.
Begley informed his supervisors at the sheriffs office that he would need additional officers on
the scene. While Begley was still in the process of making preparations, Lockhart informed
Begley that Campbell had acquired all the essential components needed to make
methamphetamine and was preparing the ingredients in a shed on his property.
Begley drafted an affidavit and made three copies — (1) a copy to retain; (2)

a copy to

attach to the search warrant once obtained; and (3) a copy to leave with the magistrate to file
with the clerk’s office. The magistrate instructed Begley to add “Madison Heights” to the
affidavit m order to clarify the location. He only made the addition on the magistrate’s copy.
Begley retained two copies of the affidavit, the original search warrant which he gave to the
Virginia State Police, and a copy of the search warrant. Begley’s affidavit stated as follows:
A confidential, reliable informant has observed a
methamphetamine lab in a shed within the curtilage, beside the
residence listed in paragraph 2 [of the affidavit] within the past 72
hours. The confidential, reliable informant is familiar with h ow
methamphetamine is manufactured and is familiar with the
precursors used to manufacture methamphetamine. The
confidential, reliable informant has observed both the p recursors
and the residents processing the precursors to make the
methamphetamine product in the shed beside [redacted] Drive.
This officer knows that manufacturing methamphetamine is in
violation of the Code of Virginia and that it is a felony offense
listed under [Code § 18.2-248].
The officers arrived at Campbell’s residence prior to executing the search warrant.
Investigator Brandon Hurt positioned himself between twenty-five and thirty yards from
-2-

/

Campbell’s shed. He observed the scene for nearly an hour before the execution of the warrant.
During that time, Hurt heard people talking and witnessed Campbell’s daughter as well as
another individual transport aluminum foil and a short hose to the shed. He also observed a
significant amount of smoke coming from the shed.
Once the ingredients had been mixed in bottles, Lockhart called Begley. Lockhart
testified that the strong fumes forced Campbell to open the door to the shed. Approximately a
minute and a half later, the police drove up Campbell’s driveway. Campbell and the other
individuals hid or ran, but were apprehended by law enforcement within the hour. The officers
recovered evidence from the methamphetamine “cook,” including rolled up aluminum foil in the
bottom of a two-liter bottle; a roll of aluminum foil; muriatic acid; pseudoephedrine; a coffee
filter; camping fuel; Drano; lye; dry ice; “sludge from a ... meth cook in [a] plastic pipe;” and
“two different containers containing liquid, both of which field tested [positive] for the p resence
of methamphetamine.”
Begley, who was qualified as an expert witness in the field of methamphetamine
production, testified that the process of making methamphetamine used highly combustible,
volatile chemicals that, if “cooked” for an extended period of time, could produce carcinogenic
and potentially lethal gases.
Virginia State Police Special Agent Glen Phillips, who was also qualified as an expert on
the subject of manufacturing methamphetamine, testified that the manufacture of
methamphetamine posed a fire hazard and explosion risk. He further stated that Campbell had
completed the process of manufacturing methamphetamine.
On February 10, 2015, Campbell was indicted for the felonious manufacture of
methamphetamine. Campbell filed a motion to suppress all evidence recovered pursuant to the
search warrant. He argued that the search warrant was defective pursuant to Code § 19.2-54
-3 -

because the clerk of court never received a complete affidavit due to a faxing error or
malfunction. The affidavit page received by the clerk of court via fax “included a description of
the offense, a paragraph describing the place to be searched, and another paragraph listing the
things or persons to be searched.” Commonwealth v. Camnbell (“Campbell I”). 294 Va. 486,
491-92, 807 S.E.2d 735, 737 (2017). The second page was missing from the fax. It contained a
description of the basis for probable cause and an explanation that the information came from an
informant and the basis for which the officer believed that the informant was credible.
Ultimately, the trial court denied Campbell’s suppression motion. While the trial court agreed
that the warrant was defective, it concluded that the search was justified by exigent
circumstances based on expert testimony and Lockhart’s communications with Begley. Id
On June 9, 2015, Campbell was indicted for feloniously possessing methamphetamine
with the intent to distribute it. On June 17, 2015, both the manufacturing and possession with
intent to distribute cases were set for trial. By counsel, Campbell requested a continuance on the
possession with intent to distribute charge due to the fact that he had only been indicted on that
charge less than two weeks earlier. The Commonwealth did not object, and the possession with
intent to distribute case was scheduled for August 19,2015. The trial on the manufacturing
charge proceeded on June-17, 2015, and the trial court found Campbell guilty ofthat charge.
Campbell appealed to this Court. On October 25, 2016, this Court reversed the trial court’s
ruling to admit evidence obtained pursuant to the search warrant and reversed Campbell’s
conviction. See Campbell v. Commonwealth. 66 Va. App. 677. 791 S.E.2d351 (2016). The
Commonwealth appealed to the Supreme Court of Virginia. The Supreme Court reversed the
ruling of the Court of Appeals and affirmed the reasoning and decision of the trial court. Thus,
Campbell’s conviction was reinstated. See Campbell I. 294 Va. at 497; 307 S.E.2d at 740.

-4-

manufacturing case (Campbell I), as well as the appeal of the constitutional double jeopardy and
Code § 19.2-294 issues. Campbell now appeals to this Court in the possession with intent to
distribute case.
Analysis
I. Law of the Case
Campbell argues on appeal that the exigent circumstances exception to the warrant
requirement could not save a violation of Code § 19.2-54. He next contends that the affidavit for
the search warrant was constitutionally insufficient and that the good faith exception to the
exclusionary rule did not apply. Thirdly, Campbell contends that exigent circumstances were not
present in this case to justify the entry and search of his property without a valid search warrant.
Campbell’s first three assignments of error are identical to the assignments of error
presented in his appeal of the manufacturing methamphetamine conviction. See Campbell I 294
Va. 486, 807 S.E.2d 735. The facts are the same in this appeal as in Campbell I. and the
evidence Campbell seeks to suppress is identical. In that case, Campbell appealed his
manufacturing conviction to this Court. We reversed the trial court’s decision. The
Commonwealth then appealed to the Supreme Court. The Supreme Court reversed the Court of
Appeals decision and reinstated the trial court’s order of conviction for the manufacturing of
methamphetamine charge. IcL at 497, 807 S.E.2d at 740. Specifically, the Supreme Court held
that, even assuming the search warrant was insufficient under the requirements of Code
§ 19.2-54, the search was nonetheless justified as a warrantless search pursuant to the exigent
circumstances doctrine. Id. at 495, 807 S.E.2d at 739.
Therefore, assignments of error 1, 2, and 3 are controlled by the “law of the case”
doctrine. It is well-established that
[when] there have been two appeals in the same case, between the
same parties, and the facts are the same, nothing decided on the
-6-

On October 25, 2015, Campbell filed a motionto dismiss the possession with intent to
distribute charge. He contended that prosecution of the possession with intent to distribute
charge would violate Code § 19.2-294 and constitutional double jeopardy principles. He also
filed a motion to suppress on the same day, repeating his argument that the affidavit filed with
the search warrant did not comply with Code § 19.2-54. The Commonwealth responded that
Campbell had not been subjected to double jeopardy because the manufacturing and possession
with intent to distribute offenses contained different elements, each requiring proof of a fact that
the other did not. Further, the Commonwealth contended that Campbell could be tried separately
for each of the “pots” that had been “cooked.” Finally, the Commonwealth argued that because
the possession with intent to distribute case was continued on Campbell’s request, Code
§ 19.2-294 did not bar the subsequent prosecution of that charge.
During argument on Campbell’s motions, Campbell argued for the first time that the
“onus” was on the Commonwealth to move to join the charges pursuant to Rule 3A:6(b) and that
scheduling the possession with intent to distribute trial on June 17, 2015 violated Rule 3A:10
because he did not have enough time to prepare.
The trial court ruled that the indictments did indeed charge separate offenses, and thus,
double jeopardy was not violated. Further, the trial court ruled that Campbell waived any
challenge because both the manufacturing and possession with intent to distribute cases were
scheduled to be tried the same day. Campbell asked that they be tried separately. As to the
suppression issue, the trial court held that its rulings on the matter in Campbell I controlled,
indicating that the search warrant was invalid, but exigent circumstances justified a warrantless
search.
Campbell entered a conditional guilty plea, “subject to the court’s ruling on the
suppression motion m this case, which is basically going to be determined by the appeal” in the
-5-

first appeal can be re-examined on a second appeal. Right or
wrong, it is binding on both the trial court and the appellate court,
and is not subject to re-examination by either. For the purpose of
that case, though only for that case, the decision on the first appeal
is the law.
MiHer-Jenkins v. Miller-Jenkins. 276 Va. 19, 26, 661 S.E.2d 822, 826 (2008) (quoting Steinman
v^Clinchfield Coal Corp., 121 Va. 611, 620, 93 S.E. 684, 687 (1917)). Therefore, we will not
address Campbell’s first three assignments of error.
II. Constitutional Double Jeopardy
On appeal, Campbell contends that the trial court erred by denying his motion to dismiss
the possession with intent to distribute indictment and ruling that the case was not barred by
constitutional double jeopardy principles. “In reviewing a double jeopardy claim, or a claim
based on statutory interpretation, this Court shall conduct a de novo review.” Davis v.
Commonwealth, 57 Va. App. 446, 455, 703 S.E.2d 259, 263 (2011). This Court “examine[s] the
record of a prior proceeding, taking into account the pleadings, evidence, charge, and other
relevant matter[s].” Davis v. Commonwealth. 63 Va. App. 45, 52, 754 S.E.2d 533, 537 (2014)
(quoting Jones v. Commonwealth. 217 Va. 231, 233, 228 S.E.2d 127, 129 (1979)).
The origin and history of the Double Jeopardy Clause are hardly a matter of dispute.”
United States v. Scott, 437 U.S. 82, 87 (1978): “The constitutional provision had its origin in the
three common-law pleas of autrefois acquit, autrefois convict, and pardon.” Id, “These three
pleas prevented the retrial of a person who had previously been acquitted, convicted, or pardoned
for the same offense.” Id The principle of double jeopardy was a “universal maxim of the
common law of England, that no man is to be brought into jeopardy of his life more than once
for the same offense.” United States v. Wilson. 420 U.S. 332, 340 (1975) (quoting 4 W.
Blackstone, Commentaries on the Laws of England 335-336 (1769)). However, the
common-law pleas merely prohibited “repeated ‘prosecution for the same identical act and
-7-

crime,’ not the retrial of particular issues or evidence.” Currier v. Virginia. 138 S. Ct. 2144,
2153 (2018) (quoting 4 W. Blackstone at 330). English and early American cases demonstrate
that line of reasoning.
In Turner’s Case. 30 Kel. J. 30, 84 Eng. Rep. 1068 (K. B. 1663),
for example, a jury acquitted the defendant of breaking into a home
and stealing money from the owner. Even so, the court held that
the defendant could be tried later for the theft of money “stolen at
the same time” from the owner’s servant. [Id] In Commonwealth
v- Robv. 29 Mass. 496 [(12 Pick. 496)] (Mass. 1832), the court,
invoking Blackstone, held that “[i]n considering the identity of the
offence, it must appear by the plea, that the offence charged in both
cases was the same in law and in fact.” Id, at 509. The court
explained that a second prosecution isn’t precluded “if the offences
charged in the two indictments be perfectly distinct in point of law,
however nearly they may be connected in fact.” rid.] (emphasis
added). Another court even ruled “that a man acquitted for
stealing the horse hath yet been arraigned and convict for stealing
the saddle, tho both were done at the same time.” 2 M. Hale, [The
History of the Pleas of the Crown, ch. 31, p. 246 (1736 ed.)].
Id Turner s Case and Roby, in addition to various other cases with similar rulings, “demonstrate
that early courts ... expressly rejected the notion that the Double Jeopardy Clause barred the
relitigation of issues or facts.” Id.
In more modem double jeopardy cases, “the courts apply today much the same double
jeopardy test they did at the founding.” Id (citing Blockburger v. United States. 284 U.S. 299,
304 (1932)). The Blockburger Court held that “where the same act or transaction constitutes a
violation of two distinct statutory provisions, the test to be applied to determine whether there are
two offenses or only one, is whether each provision requires proof of a fact which the other does
not.” Blockburger, 284 U.S. at 304. The Blockburger test (or the same-elements test) places the
focus of the analysis on the proof necessary to prove the statutory elements of each offense,
instead of the actual evidence to be presented at trial. Id. If each statute requires proof of a fact
that the other does not, they constitute separate offenses, “notwithstanding a substantial overlap

-8-

acquitted of the robbery of one victim. The Supreme Court concluded that a second trial violated
the Double Jeopardy Clause.
[T]he Court reasoned [that], because the first jury necessarily
' found that the defendant “was not one of the robbers,” a second
jury could not “rationally” convict the defendant of robbing the
second victim without calling into question the earlier acquittal. In
these circumstances, the Court indicated, any relitigation of the
issue whether the defendant participated as “one of the robbers”
would be tantamount to the forbidden relitigation of the same
offense resolved at the first trial.
Currier, 138 S. Ct. at 2149 (quoting Ashe, 397 U.S. at 445-46) (internal citations omitted). It is
important to note, however, that Ashe “forbids a second trial only if to secure a conviction the
prosecution must prevail on an issue the jury necessarily resolved in the defendant’s favor in the
first trial.” Id. at 2150. The Court in Currier observed a “critical difference” between Currier
and Ashe - Currier consented to a second trial. Id. Accordingly, Ashe cannot be applied to
Campbell’s case, as he also consented to a second trial.
The Supreme Court notes that Jeffers v. United States. 432 U.S. 137 (1977), is instructive
in this exact situation. Currier, 138 S. Ct. at 2150. In Jeffers, as in Currier and the present case,
the defendant requested separate trials for each of the counts against him in order to “reduce the
possibility of prejudice.” Id. The defendant was acquitted of a lesser-included offense. He then
argued that double jeopardy barred a trial for the greater Offense.
In any other circumstance the defendant likely would have had a
good argument. Historically, courts have treated greater and
lesser-included offenses as the same offense for double jeopardy
purposes, so a conviction on one normally precludes a later trial on
the other. Jeffers, 432 U.S. at 150-151 (plurality opinion); Brown
v. Ohio, 432 U.S. 161, 168-169 (1977) (collecting authorities).
But, Jeffers concluded, it’s different when the defendant consents
to two trials where one could have done. If a single trial on
multiple charges would suffice to avoid a double jeopardy
complaint, “there is no violation of the Double Jeopardy Clause
when [the defendant] elects to have the .. . offenses tried

-10-

separately and persuades the trial court to honor his election.”
[Brown], 432 U.S. at 152.
Id.
In the present case, Campbell’s manufacturing and possession with intent to distribute
charges were to be tried concurrently on June 17, 2015. However, Campbell requested a
continuance in the possession with intent to distribute case, arguing that he had been indicted on
that charge less than two weeks prior and needed more time to prepare. He made no objection to
the possession with intent to distribute charge itself. The continuance was granted by the trial
court. The manufacturing trial proceeded, and Campbell was found guilty. Campbell filed a
motion to dismiss the possession with intent to distribute charge, contending that the second trial
would violate double jeopardy principles.
“[Campbell’s] consent [to a second trial] dispels any specter of double jeopardy abuse
that holding two trials might otherwise present.” Id at 2151. Campbell’s request to sever the
charges pending against him and have two separate trials was a voluntary, strategic choice.
“[Difficult strategic choices like these are ‘not the same as no choice,’ and the Constitution
‘does not... forbid requiring’ a litigant to make them.” Id at 2152 (citations omitted). The
Double Jeopardy Clause, “which guards against Government oppression, does not relieve a
defendant from the consequences of his voluntary choice.” Id at 2151 (quoting Scott. 437 U.S.
at 99).
Thus, the trial court did not err in denying Campbell’s motion to dismiss the possession
with intent to distribute indictment and ruling that the case was not barred by constitutional
double jeopardy principles.
III. Statutory Double Jeopardy - Code § 19.2-294
Campbell argues that the trial court erred in ruling that his indictment and conviction of
possession with the intent to distribute were not barred by Code § 19.2-294. He contends that
-11 -

the proceedings in the manufacturing case (Campbell D and the instant possession with intent to
distribute case were “successive” because he was indicted on different dates and the cases were
not tried in a single, concurrent evidentiary hearing. Therefore, he argues, he was subjected to
multiple prosecutions for the same act.
Code § 19.2-294 states in pertinent part:
If the same act be a violation of two or more statutes, or of two or
more ordinances, or of one or more statutes and also one or more
ordinances, conviction under one of such statutes or ordinances
shall be a bar to a prosecution or proceeding under the other or
others.
Even though Code § 19.2-294 does not explicitly state that it provides a defense of
former jeopardy, “it amounts to such a defense in purpose and desired effect.” Epps V.
Commonwealth, 216 Va. 150, 155, 216 S.E.2d 64, 68 (1975) (citation omitted). Code
§ 19.2-294 precludes the Commonwealth from “subjecting an accused to the hazards of
vexatious, multiple prosecutions.” Hall v. Commonwealth. 14 Va. App. 892, 899, 421 S.E.2d
455, 460 (1992) (en banc). “Code § 19.2-294 does not bar multiple convictions for the same act
when those convictions are obtained in a single trial,” Id at 894, 421 S.E.2d at 457.
Our holding that the possession with intent to distribute trial did not violate constitutional
double jeopardy principles also applies here. Although Campbell argues that the manufacturing
charge and the possession with intent to distribute charge should have been prosecuted together
in a single trial, Campbell voluntarily requested to continue the possession with intent to
distribute charge and have two trials. “[Campbell’s] consent [to a second trial] dispels any
specter of double jeopardy abuse that holding two trials might otherwise present.” Currier. 138
S. Ct. at 2151. Campbell waived any right to challenge the decision of the trial court to proceed
with the second trial.

-12-

The Commonwealth did not “subject” Campbell to “vexatious, multiple prosecutions,”
which is the primary concern of Code § 19.2-294. Hah, 14 Va. App. at 899,421 S.E.2d at 460.
Rather, Campbell requested two separate trials. Therefore, we find that this argument is without
merit.
Conclusion
For the foregoing reasons, we hold that the Supreme Court’s ruling in the manufacturing
case controls the outcome of Campbell’s assignments of error 1, 2, and 3. The search warrant
has been held invalid. However, the warrantless search was justified based on exigent
circumstances. We further hold that constitutional and statutory double jeopardy principles were
not violated in the prosecution of the possession with intent to distribute methamphetamme. We
therefore affirm Campbell’s conviction for possession with the intent to distribute
methamphetamine pursuant to Code § 18.2-248.
Affirmed.

-13 -

Humphreys, J., concurring in the judgment.
I join entirely in the analysis and judgment of my colleagues that the recent decision of
the Supreme Court of the United States in Currier v. Virginia. 138 S. Ct. 2144 (2018), is
dispositive with respect to Campbell’s fifth assignment of error—that his prosecution in this case
constituted a violation of the Double Jeopardy Clause of the Fifth Amendment. T also join in the
analysis and judgment of my colleagues that the same logic applicable ra Currier is dispositive of
his fourth assignment of error—that Campbell’s motion for separate trials constitutes a waiver of
the application of Code § 19.2-294.
However, regarding Campbell’s first three assignments of error, 1 join my colleagues
only in affirming the judgment in this case. As to Campbell’s first assignment of error, l do so
because I must, since, as my colleagues also correctly note, our Supreme Court’s decision in
Commonwealth v. Campbell (“Campbell I”). 294 Va. 486, 489, 807 S.E.2d 735, 736 (2017), is
binding upon us and controls the disposition of that assignment of error.2

“ Campbell’s second and third assignments of error assert constitutional infirmities based
entirely upon the failure of the magistrate to properly deliver the search warrant and affidavit to the
clerk oftne circuit court. He reasons that because the wa: rant was not properly filed, it is a
• constitutional nullity and therefore no probable cause existed to support a search. Given cur
Supreme Court's holding in Campbell I, those assignments of error are now moot, and we need not
decide them, however I note that the Fourth Amendment’s exclusionary rule is.not a strict-liability
sanction. It is a prophylactic remedy and to the extent it is relevant to the first assignment of error, I
respectfully suggest that its purpose is not to deter the malfunctioning of a fax machine as
apparently occurred here. See, e.g., Matthew's v. Commonwealth. 65 Va. App. 334, 347, 778
S.E.2d 122, 129 (2015) (‘To trigger the exclusionary rule, police conduct must be sufficiently
deliberate that exclusion can meaningfully deter it. and sufficiently culpable that such deterrence is
worth the price paid by the justice system.” (quoting Herring v. United States. 555 l I S. ] 35 144
(2009))).
Where police have acted reasonably and conscientiously, as in this case where they obtained
and properly executed a search warrant invalidated only by the magistrate’s failure to transmit it and
its accompanying affidavit to the clerk of the circuit court, the Fourth Amendment’s exclusionary'
rule is inapplicable and only the statutory sanction of Code § 19.2-54 could affect the admissibility
of the evidence seized from die execution of the search warrant.
-14-

y

Regarding the current appeal with respect to Campbell’s conviction for possession with
the intent to distribute methamphetamine, Campbell moved to suppress the evidence seized on
the same grounds he argued in his earlier trial and appeal for manufacture of methamphetam ine.
Thus, tor the reasons stated by the majority, Campbell I is binding and controls the outcome of
this assignment of error and renders two others moot. I write separately to explain why I believe
that decision r.o be flawed and to point out the mischief I believe it will now cause.
The analysis and judgment of our Supreme Court in Campbell I raise several concerns in
my mind. First of all, I respectfully suggest that an inescapable inference from even a cursory
review of its analysis in Campbell I is that our Supreme Court has concluded that it is
fundamentally unfair to bar the use of evidence due to an apparent mechanical failure of a fax
machine when police have acted responsibly and appropriately in securing a search warrant and
gathered the evidence Campbell sought to suppress in total conformity with the Fourth
Amendment.. Flowever, as much I, or any judge, might personally agree with that conclusion, it
has no place in any legal analysis. An essential requirement of our judicial ro le, stemming from
the constitutional divi sion of power among the three branches of government, is that our
subjective opinion regarding the policies embodied in statutes ought to have no bearing on any
legai analysis of those statutes. In short, whatever our private opinions of them, it is not for the
courts to nullify oi undermine the policy decisions of the legislative branch so long as they are
constitutional.3
Moreover, our supreme Court’s decision in Campbell I ignored the basic constitutional
tenet that the Fourth Amendment of the United States Constitution is a floor, not a ceiling. In
CooperjnU^aiifontia, 386 U.S. 58 (i967), the United States Supreme Court held that the states

u v. £
' 1 have also observed over the years that the surest way to obtain the modification or repeal
of a “bad” law by a legislature is to strictly enforce it.
-15 -

remain free “to impose higher standards on searches and seizures than required by the Federal
Constitution.” Id at 62. Reversing our Supreme Court in Virginia v. Moore. 553 U.S. 164
(2008), the United States Supreme Court repeated that states may provide “additional protections
exclusively as matters of state law.” Id. at 171. In other words, the various states may enact
statutes that go beyond the minimum requirements imposed by the Fourth Amendment: if they
choose. The Commonwealth has occasionally done so. Moore dealt with whether evidence must
be suppressed when it was recovered as part of a search incident to arrest when the arrest,
constitutional under the Fourth Amendment, nevertheless violated Code § 19.2-74, which
requires the issuance of a summons rather than a physical arrest for certain misdemeanor
offenses. The United States Supreme Court held in Moore that the Fourth Amendment’s
exclusionary ruie applied only to Violations of the Fourth Amendment, itself and the existence of
any exclusionary remedy for violation of a state procedural statute must be found in state law.
See id at 178. “[Historically, searches or seizures made contrary to provisions contained in
Virginia statutes provide no right of suppression unless the statute supplies that right.” Troncoso
v._ Commonwealth, 12 Va. App. 942, 944, 407 S.E.2d 349, 350 (1991) (emphasis added); see
also Thompson v. Commonwealth. 10 Va. App. 117, 122,390 S.E.2d 198,201 (19901; Hail v.
Commonwealth, 138 Va. 727, 733-34, 121 S.E. 154, 156 (1924).
i he statute at the heart or Moore, Cuoe § 19.2 -74, contained no exclusionary remedy.
However, Code § 19.2-54, the statute at the center of both this case and Campbell I, clearly does

/V

so. In enacting Code § 19.2-54, the Genera! Assembly imposed a mandatory filing requirement

\

/

'on every judicial officer issuing a search warrant, ordinarily a magistrate. The statutory
requirement is both straightforward and draconian. Code § 19.2-54 requires that the magistrate
deliver or transmit a copy of the search warrant and the supporting affidavit to the clerk of the
circuit court of the city or county where the search is to take place, within seven days. This
-16-

N

J

statute clearly specifies that the failure of the magistrate to do so prohibits the use of any
evidence obtained until a “reasonable time” after the warrant and affidavit are filed, provided
that such is done within “30 days.” The clear implication is that a failure to'file is hot curable
after 30 days.
Specifically, the final paragraph of Code § 19.2-54 provides that the
[fjailure of the officer [here, a magistrate] issuing such warrant to
file the required affidavit shall not invalidate any search made
under the warrant unless such failure shall continue for a period of
30 days. If the affidavit is filed prior to the expiration of the
30-day period, nevertheless, evidence obtained in any such search
shall not be admissible until a reasonable time after the filing of the
required affidavit.
(Emphasis added). While inartfully drafted, this statute implicitly provides that evidence seized
“under the w'arrant” is inadmissible if the failure to file the required affidavit continues beyond
29 days. In essence, Code § 19.2-54 establishes a more stringent standard for the admissibility
of evidence obtained through search warrants than those required by the Fourth Amendment and
also provides a statutory mandate for exclusion of the evidence obtained for non-compliance
after 29 days. At least it did until our Supreme Court neutered this statute by “assum[ing]” it
was violated but nevertheless holding that, contrary to the United States Supreme Court’s
decisions in Copper and Moore, a less stringent constitutional standard trumps a more restrictive
statutory requirement and therefore, apparently the only criteria for admitting evidence obtained
pursuant to a search warrant, in the Commonwealth going forward, is compliance with the Fourth
Amendment.
1 reach the conclusion that our Supreme Court effectively rendered the General
Assembly's exclusionary sanction in this statute a nullity in Campbell I, because of that Court’s
holding that “[wjhatever the scope of inadmissibility contemplated by Code § 19.2-54 for
searches made under a defective warrant, nothing in the plain language of this statute compels
-17 -

the exclusion of evidence obtained in the course of a search that is justified on grounds other
than a warrant.” Campbell I, 294 Va. at 493, 807 S.E.2d at 738 (emphasis added). In my view,
this statement ignores both the right of the General Assembly to impose “additional protections
... as matters of state law” as restated .in Moore and it also ignores the plain language of thestatute -that its exclusionary remedy expressly applies to “any search made under the warrant.” In
Campbell I and in this case, a search warrant was obtained, executed, and evidence seized
pursuant to it. Given that the police in this case obtained a constitutionally valid search warrant
from a magistrate, executed that warrant properly, and obtained evidence expressly within the
/

scope of, and authority granted by, the warrant, the holding that the search in this case and in
Campbell I was not conducted “under the warrant” is so much in conflict with the facts in the
record as to amount to a legal fiction without saying so.
Moreover, to reach this logically strained result, our Supreme Court, set aside another
basic tenet of appellate review with problematic consequences going forward. After assuming
that the warrant was invalid under Code § 19.2-54, our Supreme Court nevertheless concluded

A

that it need not determine if the sanction in that statute applied because the search was justified
by the exigent circumstances exception to the normal constitutional requirement that a warrant
be obtained prior to a search.
Judicial restraint commands that courts decide cases “cn the best and narrowest ground
available.” Commonwealth v. Swan. 290 Va. 194, 196, 776 S'.E.2d 265, 267 (2015) (quoting
McGhee v. Commonwealth. 280 Va. 620, 626 n.4, 701 S.E.2d 58, 61 n.4 (2010)). “A
fundamental and longstanding precept of this doctrine is that ‘unnecessary adjudication of a
constitutional issue’ should be avoided.” Id, (quoting Bell v. Commonwealth. 264 Va. 172, 203, 563 S.E.2d 695, 715 (2002)).

:

-18-

Instead of adhering to its own jurisprudence in this regard, our Supreme Court conducted
an entirely unnecessary constitutional analysis expressly to avoid construing the statute.4 While I
am confident that sowing confusion in the jurisprudence of the Commonwealth for this Court
and the trial courts was not intended, among the consequences of Campbell I going forward are
that, no statutory' requirement that expands upon the minimum protections of the Constitution is
effective in the Commonwealth and also that the courts of the Commonwealth no longer need
refrain from deciding constitutional issues, if doing so will avoid the enforcement of a statute we
regard as overly unforgiving.
Additionally, and even more troubling to me, is that in its entirely unnecessary
constitutional analysis in Campbell I. our Supreme Court applied Fourth Amendment exigent
circumstances criteria clearly inconsistent with the jurisprudence on the subject from the
Supreme Court of the United States. Exigent circumstances, in the most basic sense, is quite
simply a situation where probable cause exists but it is not practical or reasonable for a law
enforcement officer to obtain a search warrant. The United States Supreme Court has repeatedly
stressed that to constitute exigent circumstances sufficient to provide an exemption from the
constitutional requirement that a warrant be secured prior to a search, police must be faced with a
“now or never” situation.” Riley v. California. 134 S. Ct.2473, 2487 (2014) (quoting Missouri
v. McNeely, 569 U.S. 141, 153 (2013)); see also Roaden v. Kentucky. 4i3 U.S. 496, 505 (1973).
The Fourth Amendment guarantees the right of liberty against unreasonable searches and
seizures by providing:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon
I note that Campbell does not challenge the validity of the search warrant at issue based
upon a lack Oi probable cause, upon any deficiency in the manner or scope of its execution by
police, or any ground other than purported constitutional consequences flowing from the
magistrate’s failure to adhere to Code § 19.2-54.
-19-

probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be
seized.
U.S. Const, amend. IV.
Before a search occurs, “a warrant must generally be secured.” Kentucky v. King. 563
U.S. 452, 459 (2011); see also Coolidge v. New Hampshire. 403 U.S. 443, 454-55 (1971)
(“[Sjearches conducted outside the judicial process, without prior approval by judge or
magistrate, are per se unreasonable^]”). However, “this presumption may be overcome in some
circumstances because ‘[t]he ultimate touchstone of the Fourth Amendment is
“reasonableness.

)»5^

King, 563 U.S. at 459 (quoting Brigham City v. Stuart. 547 U.S. 398, 403

(2006)). The exceptions to the Fourth Amendment's warrant requirement “are few in number
and carefully delineated.” Katz v. United States. 389 U.S. 347, 357 (196.7). “[I]n general, they
serve the legitimate needs of law enforcement officers to protect their own well-being and
preserve evidence from destruction.” United States v. United States Dist. Court, 407 U.S. 297,
318 (1972).
The presence of “exigent circumstances” is one such exception to the warrant
requirement. As correctly noted by our Supreme Court in Campbell I. the exigent circumstances
exception “applies when the exigencies of the situation make the needs of lav/ enforcement so
compelling that [a] warrantless search is objectively reasonable under the Fourth Amendment.”
Campbell I, 294 Va. at 493, 807 S.E.2d at 738 (quoting King, 563 U.S. at 460) (some internal
quotation marks omitted) (emphasis added). Essentially, it “allows a warrantless search when an
emergency ieaves police insufficient time to seek a warrantBlrchfield v. North Dakota. 136
S. Ct. 2160, 2173 (2016) (referencing Michigan.v. Tvler. 436 U.S. 499, 509 (1978)) (emphasis
added); see also Sckmerber v. California. 384 U.S. 757, 771 (] 966) (upholding a warrantless
search when “there was no time to seek out a magistrate and secure a warrant”). However, after
-20-

correctly stating the definition of exigent circumstances, our Supreme Court in Campbell I then
misapplied that definition by ignoring the fact that the key phrase in all of these cases is
“warrantless search.”
The United States Supreme Court has recognized many common situations where
obtaining a search warrant is objectively unreasonable. “Our decisions have recognized that a
warrantless entry by Criminal law enforcement officials may be legal when there is compelling
need for official action and no time to secure a warrant.’’' Tyler. 436 U.S. at 509 (emphasis
added).
These situations include the so called “emergency aid exception,” where “law
enforcement officers may enter a home without a warrant to render emergency assistance to an
injured occupant or to protect an occupant from imminent injury.” Brigham Citv. 547 U.S. at
403. The hot pursuit exception recognizes “the right of police, who had probable cause to
believe that an armed robber had entered a house a few minutes before, to make a warrantless
entry to arrest the robber and to search for weapons.” United States v. Santana. 427 U.S. 38, 42
(1976). And, perhaps most on point in this case, is the exception permitting “a warrantless entry
onto private property ... to prevent the imminent destruction of evidence.” Brigham Citv. 547
U.S. at 403. There are numerous other examples of exigent circumstances but what every single
one of them has in common is that they are situations where it would not be objectively
reasonable for the police to take the time to obtain a warrant.5

e-g-> Warden v. Hayden. 387 U.S. 294 (1967) (warrantless entry of house by police in
hot pursuit of armed robber); Kerv. California. 374 U.S. 23 (1963) (warrantless and unannounced
entry of dwelling by police to prevent imminent destruction of evidence); N. Am. Cold Storage Co.
v. Chicago, 211 U.S. 306 (1908) (warrantless seizure of unwholesome food); Jacobson v.
Massachusetts, 197 U.S. 11 (1905) (warrantless compulsory smallpox vaccination); Compagnie
Francaise v. Bd. of Health, 186 U.S. 380 (1902) (warrantless health quarantine).
-21-

In all of these cases, the overarching principle expressed by the United States Supreme
Court is that if there is a “compelling need for official action and no time to secure a warrant,”
the warrant requirement may be excused. See Tvler. 43'6 U.S. at 509 (emphasis added).
No such excuse existed in either Campbell I or this case. According to our Supreme
Court as reaffirmed in Campbell I, the factors relevant to an exigent circumstances determination
include, but are not limited to:
(1) the degree of urgency involved and the time required to get a
warrant; (2) the officers’ reasonable belief that contraband is about
to be removed or destroyed; (3) the possibility of danger to others,
including police officers left to guard the site; (4) information that
the possessors of the contraband are aware that the police may be
on their trail; (5) whether the offense is serious, or involves
violence; (6) whether officers reasonably believe the suspects are
armed; (7) whether there is, at the time of entry, a clear showing of
probable cause; (8). whether the officers have strong reason to
believe the suspects are actually present inlhe premises; (9) the .
likelihood of escape if the suspects are not swiftly apprehended;
and (10) the suspects’ recent entry into the premises after hot
pursuit.
Campbell I, 294 Ya. at 495, 807 S.E.2d at 739-40 (quoting Verez v. Commonwealth. 230 Va.
405, 410-11, 337 S.E.2d 749, 753 (1985)). These factors are to be considered “as they
reasonably appeared to trained law enforcement officers to exist when the decision to enter was
made." Verez, 230 Va.'-at 41.1, 337 S.E.2d at 753 (emphasis added).
I have several problems with the application of the Verez factors to the facts found in
both Campbell I and this case. Initially, I note that in this case as in Campbell I. none of the
Verez factors were likely the subject of any consideration at all by the police “when the decision
to enter was made” since they had obtained and were executing, what the}' believed to be, and at
the time actually was, a valid search warrant. Additionally, I am troubled by our Supreme
Court’s determination that four of the Verez factors favored a finding of exigent circumstances.
Clearly, as they noted, “[t]he existence of probable cause is not in doubt here” but probable cause
-22-

is a requirement for any search and is not a factor in determining whether the requirement to
obtain a warrant is excused. Campbell I. 294 Va. at 496, 807 S.E.2d at 740; see also Welsh v.
Wisconsin, 466 U.S. 740, 753 (1984) (“[N]o exigency is created simply because there is
probable cause to believe that a serious crime has been committed[.]’’).
The manufacture of methamphetamine is undoubtedly dangerous to “cooks" and
bystanders alike and sis certainly a serious offense. However, our Supreme Court’s reliance on
two other Verez factors—the degree of urgency and the “disposability of evidence[,]” as
characterized in Campbell I—are not supported by the record. As described by our Supreme
Court, “[w]here there are exigent circumstances in which a reasonable police action literally
must be ‘now or never’ to preserve the evidence of the crime, it is reasonable to permit action
without prior judicial evaluation:' Smith v. Commonwealth^ Va. App. 592, 598, 696 S.E.2d
211, 214 (2010) (quoting Wright v. Commonwealth. 222 Va. 188, 193, 278 S.E.2d 849, 853
(1981)) (emphasis added). However, unlike in Smith and Wright, in Campbell I and in this case,
the record establishes that police obviously had the time to secure the judicial evaluation of
L-

probable cause and formal authorization to search for and seize evidence of criminal activity that
the Fourth Amendment prefers. It seems axiomatic to me that the fact that they did so, pretty
conclusively establishes that .this was not a situation where me degree of urgency and the
“disposability of evidence" made it necessary to.act in the absence of such prior judicial
evaluation and authorization.
Moreover, in reaching its holding that the police here need not have bothered to obtain a
search warrant, our Supreme Court deviated from the Fourth Amendment jurisprudence of the
United States Supreme Court by considering “the degree of urgency involved and the time
required to get a warrant" as just one factor in an exigent circumstances analysis that may be
outweighed by others when, in fact, it is the overriding factor. Since they went to the trouble of
-23-

actually complying with the letter of the Fourth Amendment, the police officers in-these cases
clearly did not share our Supreme Court’s various ex postfacto conclusions that there was a
likelihood of evidence being removed or destroyed, that the “cooks” knew that they were being
watched by the police or by an informant, or that there was any “risk of flight” if they took the
time necessary to secure a warrant. Instead, the record is clear that law enforcement officers
w^re on the scene of.the cook. ’ conducting surveillance well before executing the search
warrant. Lnder the rants of this case, the fact that police actually obtained a constitutionally
valid search warrant categorically contradicts .any suggestion that this was a “now or never”
situation where officers believed that the methamphetamine would be destroyed or removed if
they took the time to do what they did — obtain a search warrant.
In summary, where police actually secure a search warrant, the factors mentioned in
^erez *° determine if it was reasonable for police to not obtain a warrant become irrelevant
because exigent circumstances to justify a warrantless search cannot exist as a matter of law if
there has been sufficient time for police to actually obtain the search warrant the Fourth
Amendment ordinarily requires.
To be clear, there is no violation of the Fourth Amendment in this case any more than
there was in CampoeJ I and the search warrant issued >p this case was entirely valid at. the time
of its execution. •It <js only tne subsequent failure' of a magistrate .to comply with a purely
statutory requirement that rendered inadmissible the evidence obtained in the search. My view is
simply that there was no need for our Supreme Court to construct a retroactive and very
problematic constitutional rationale to justify a warrantless search that was actually based upon a
constitutionally valid search warrant, other than to circumvent the will of the General Assembly
as expressed in a presumptively constitutional, though apparently unpalatable statute.

-24-

1

r

V.
“I

;

Although I am bounct to apply its judgment to this case, for the reasons discussed above, I
respectfully disagree with the analysis of our Supreme Court in-Campbell I. but nevertheless join
my colleagues in affirming the judgment below.

.V-

A

1'
\

I%
/
r

\

r"

L
-25 -

.//

.y

\A

\
V.

08/21/2018

2 NOTICE of Appearance by Katherine Quinlan Adelfio on behalf of Tammy Brown
(Adelfio, Katherine)

09/14/2018

2 MOTION for Extension of Time to File Answer re £ Order of Prisoner Service (2254)
by Tammy Brown.Motions referred to Judge Robert S. Ballou. (Adelfio, Katherine)

09/18/2018

10 ORDER granting 2 MOTION for Extension of Time to File Answer re £ Order of
Prisoner Service (2254) Tammy Brown answer due 10/2/2018.Entered by Magistrate
Judge Robert S. Ballou on 9/18/2018. (tvt)

09/25/2018

11

10/01/2018

12 Rule 5 Answer RESPONSE to 1 Petition for Writ of Habeas Corpus by Tammy
Brown.(Adelfio, Katherine)

10/01/2018

11 MOTION to Dismiss by Tammy Brown. (Adelfio, Katherine)

10/01/2018

14 Brief / Memorandum in Support re 13 MOTION to Dismiss . filed by Tammy Brown.
(Attachments: # 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D)(Adeliio,
Katherine)

10/02/2018
10/10/2018

11 Roseboro Notice re 13 MOTION to Dismiss Deadline set for 10/26/2018. (sit)
11 Response re 13 MOTION to Dismiss . filed by James W. Campbell, (sit)

10/11/2018

17

10/12/2018

11 State Court Records from Amherst County Circuit Court located in the clerk's office.

State Court Records from Court of Appeals of Virginia. (2 file folders) (ck)

State Court Records from Supreme Court of Virginia.(l volume) (ck)
(1 volume/box) (sit)

11/09/2018

19 Pursuant to STANDING ORDER 2018-9, the U.S. Magistrate Judge Joel C. Hoppe is
referred to this case. Magistrate Judge Robert S. Ballou no longer assigned to the case,
(aab)

05/28/2019

2£> MEMORANDUM OPINION. Signed by Senior Judge Jackson L. Kiser on 5/28/2019.
(sit)

05/28/2019

21 ORDER denying 12 Motion to Dismiss, and Respondent is DIRECTEDto respond to

Petitioner's claims within 30 days from the entry of this order. (Order and/or Opinion
mailed to Pro Se Party). Signed by Senior Judge Jackson L. Kiser on 5/28/2019. (sit)

06/04/2019
06/04/2019

22 Letter requesting case status/legal advice by James W. Campbell (ck)
22 Response re 22 Letter, (ck)

\

//
?

I

Ai

^____
u/vrr^o i f'/: rsX/V TH/ <
•- CO £'-f'SZ-7~ CZ>F
/tPPBFLX Fo/< rtfc fqvFF/p c.xsz curr
____

..$*■■*■''

t

\

\J

.AOCLl

i) c%Sf* e 5

/*/ - 77Qo

tvg//
Pt/Ch ‘osse/"

V'.

7'c jri jn »,•-

7

>5V o
JZcrp

FypyJ c. //c r:

/

rtoTXQA/ ro •: />? x

Y

Pt.S-uQp' ' rC7p^ff~ru //<;
lr~Q OCT t^A/S COOCf’ F LSr\rt.S.C'^ f' f-Q F * p/* y/
P& r/w x
7 fSOC.OF s*^l-'P
^ LS Cf Xf/ Xo >u>
/Vu /#€• <uF&\je r 7^/ /coP? c~*<se j ,a, orcAer to 7e t-ve uv •
Pr Ay t/ &/ '- A£ f /■: gr - ./? cV/./"/•
C*Sj PXJ /~£>r g aoF?
/
'
^
CCt use SA o \*s/ c ,_____________
/ C-- LSC 5 A/C,A
Pcp£e
Pr fi rt o s - p
*■ / j
C off ■; /i/£> l ^

r.

/?'/? t * e.

V

PA. p P
/

A- ^ J

A r' u r r

A C <r /•■..

i

•

//
c1>Ce>f

FlyxO

PA<- F'A!'Fcf'/y cfFrctr Poc^rF ofl
A >
~f'—
* //"*r,
’z^x z act'//o*L ~
/ r -/—/-*—-/

-A

i.\

^

■;. y

!/*-■’/

o

/,<Z> pp C.'^ Y ->
s /

Pu^PCcPAy/P/
pe^fA'c *. zs '•

^

/y

Pc-/?;•'' -Pjhc/?
pA£vP'2y3>2~

,/ '

.....

St i!"'- A C/Y_________

5- /z y / 2o so

<rcr)

I// Tff/z VS/TTSO
/r,ar:~frL f

?r,.¥T,£T

AtT/? 7~/r-/T

roar 7'

&/~

szr/zrvjr 7~

/~~ o '>' /? 7"//

>l/o. /? - 7 7<r^

,/;

A? A >

<r -v. .v*. £>
PrAt

V •■.-■'.

z'/

V\,

/

pro A^/>'

/ VI yrV */

iz! /■ -:'.-r'~/*-"J'C'
7-

ef/yptS/rr

O A.

/

!

c -r'

'rrjro^y /r4? &£fj£/fR2rAs&

I

£

—----------- ) .Cr:

K

1

PZ/-7-SOA/ pO/Z # f?&/:/?■& Tso'Kr ■*

A.

X*

Pe’f/'ff'-ere' ^fy'r. -r,
O i.'-ZT-f-j Q/».

/'l r V'z?

f
z?

rr&s-e.sCfT A&-A^. /
^ /?

^ /

AzA,: C./^f/e::^''

■4z -g

-ll D

-rA
z.?z

‘/

d40flr#,/S~~

(A)

/
/

~I'P Jr-# />■„

C&!lgj>TTQV PRE'igA/T/TO
f.

••sVi/Snztfgjfc

CC. :•

pear.rA

C/?)

. •/ •■ 'Ay,-

S"/-. A

7% Z J~ / j" .<£*

S'er

A/

/{

.--A

r <-.... ..;

'> •'/ .

<

n
Sis re

ru*V/..r

zi

.V

/
/?..e>e/ aa
-aa

oa

-a<->

&

\'&(,'vu,

za a

rV)

/~-?z

z

z

' 77 z t^..-n

/%

\/>

/
i

V

t!f Y"-'(______
Z2i.^JALLJ^l A/'-Zc

f&fr /X- 5~,

■->

\a'S' nlU..op7 Jr

. /

C /A.

-/

.%?re/r. e

£,o) .. Or‘r-*

<rv> cv„v-.a- —

-Z£_A_

/ 7;.

a

po cy/7K.o'f^f’

/*•-. /.

/> .;'

^ *s£p£'rc?.rTrs&# t 7/4
/
-/. nfJfKrrf~ ---/>? A -< /z£^ - /';
.--■

z

' ^'/"er.y-7 ■/ •_ e'~-A

£•*..

/.r/y/'f

>5'V'.,

/

/- /yA

LtLaXj-

--

vj£Lsr/jj*-T~ ~pz>s
A r'fl__________ _

/.

•<>
A

/
<7

:---£

^7

/

„rci-^ /~/r/n

/?
-r

/-: //>«'

Pt^e c)

(

r

■o. -./c-. fr Poi'

±£L
/

/?

P A...

/*r;

■c2^>': P

7----

/

'SSt- —

<u

vcXAs___

r^c~- ;/'-^f. . *& zs r tiz^p's
rc’s-v /f/.
r
7 -.;7
v-7 fO a /Ace .77_L4_a4^/V
' r
f
/LS’ecyzP J-? ■MAlluP i; ,s. *'/ r f (i~//:r & <y<a

/ 5"T
/
jL

s_c^^ypL
z*./WVT/g A, *:
4jL

.j; /--

/

/

___ /L
-Xf
i, j

J y,

P

'—KrJ-4-

(

S

—i ..t—i
jp

r__/&/ r
d.

.

.

-■?. £Z.

r

/

'//~A

s

S

/

/
/y

< --/f... _

JL»

/
.^—4l
_ -

.^.

f-r^u/y A

-eL

'r

C7
7-

/(
r
-2^U£._____________________ yzci

y? ,•*✓“

/

/

/

C'Hp/pPs'K.

/V'

-jl

y

-PLPC 5 / a7 .'/A^kzpP
i

:, <2-f:^AAtZ./pAl

r:-^yf

S_ >i^~££i.Z----- —-^L_ i L. /<i,,-;y

y /- /y

Pkz^z£>
/X

y
—;•

‘y■{■-..

/
/

\

/•

/■'

yr>

!....,;.<r i.*j?..
-

pr/xJC

TjAtia.____
-/

